OIG Audit Report

Office of Justice Programs Office of Juvenile Justice and Delinquency Prevention Grants Awarded to Techmission, Inc. Boston, Massachusetts
Audit Report GR-70-09-005
July 2009
Office of the Inspector General


Executive Summary


The U.S. Department of Justice (DOJ) Office of the  Inspector General, Audit Division, has completed an audit of the Office of  Juvenile Justice and Delinquency Prevention (OJJDP) grant number  2005-JL-FX-0015 and cooperative agreement number 2006-JL-FX-K022,1 awarded to TechMission, Incorporated (TechMission).2 The purpose of these grants was to protect  children in at-risk communities from pornography and other dangers online, and  to support technology based programs for at-risk youth during after school  hours.
The objective of this audit was to  determine whether reimbursements claimed for costs under the grants were  allowable, supported, and in accordance with applicable laws, regulations,  guidelines, and the terms and conditions of the grants.  We also assessed TechMission’s program  performance in meeting grant objectives and overall accomplishments.
We determined that TechMission did not fully comply with  grant requirements in the areas we tested.   We found that TechMission did not follow its approved indirect cost agreement  and did not use the proper methodology in charging expenditures for indirect  costs to the grants.  Instead of charging  the grants the approved indirect cost rate, TechMission charged expenditures  budgeted as indirect costs to the direct cost categories in the approved  budgets.  We further determined  that TechMission did not adhere to the direct cost categories in its approved  grant budgets and it reprogrammed grant funds in excess of 10 percent of the total grant award without  the required OJP preapproval.  TechMission  also miscategorized certain costs in the grant budgets  it submitted to OJP, which OJP subsequently approved.  Finally, we determined that  TechMission did not adhere to the special condition requiring it to submit all  grant funded products to OJP for review and approval before any public  distribution.
These  items are discussed in detail in the Findings and Recommendations section of  the report.  Our audit objectives, scope,  and methodology are discussed in Appendix I.
We discussed the results of our audit with officials from  TechMission and have included their comments in the report, as applicable.  In addition, we provided TechMission and  OJP a copy of the draft report and their responses can be found in Appendices  II and III respectively.  In its  response, TechMission agreed with our findings and subsequently provided  documentation demonstrating the implementation of policies and procedures that  addressed each of the recommendations made in our draft report.  Additionally, our analysis of both responses,  and review of the documentation provided by TechMission, allowed us to close  the recommendations.  Our detailed analysis  and closure of each recommendation can be found in Appendix IV of this  report.  


 

Footnotes

Because our audit approach treats both grants  and cooperative agreements identically, we refer to both funding mechanisms as  grants throughout this report.
We originally intended to audit grant number 2008-JL-FX-0544.  However, we determined there had been no  programmatic or financial activity related to this grant at the time of our  audit.  Therefore, we did not include  this grant in our audit.





 




Return to OIG Home Page